App. No. ___

 

IN THE
SUPREME COURT OF THE UNITED STATES

 

EDWARD THOMAS, WARDEN,
CENTRAL PRISON, RALEIGH, NORTH CAROLINA,

Petitioner,
Vv.
WILLIAM LEROY BARNES,
Respondent.

 

CERTIFICATE OF SERVICE

[CAPITAL CASE]

 

I, Jonathan P. Babb, Special Deputy Attorney General for the State of North
Carolina and a member of the bar of this Court, hereby certify that on the 5th day of
March, 2020, one copy of the State of North Carolina’s APPLICATION TO EXTEND
TIME TO FILE PETITION FOR WRIT OF CERTIORARI was served on counsel for

respondent via Federal Express Overnight mail as follows:

M. Gordon Widenhouse, Jr. George Currin

Rudolf Widenhouse Attorney at Law

1918 Tryon Court 725 Merrimon Ave #8594
Chapel Hill, North Carolina 27517 Asheville, North Carolina 28804
(919) 967-4900 (828) 832-1515

megwidenhouse@rudolfwidenhouse.com georgecurrin@aol.com
This the 5th day of March, 2020.

  

nathan P. Babb
pecial Deputy Attorney General
Counsel of Record

  

North Carolina Department of Justice
Post Office Box 629

Raleigh, North Carolina 27602
Telephone: (919) 716-6500

State Bar No.: 20181
jbabb@ncdoj.gov
